Appendix A-1

Appeals Court

17-P-1189

JANICE SMYTH vs. CONSERVATION
COMMISSION OF FALMOUTH & another.1
No. 17-P-1189.
Barnstable. September 7, 2018. — February 19, 2019.
Present: Green, C.J., Milkey, & Singh, JJ.
Eminent Domain, Jury trial, What constitutes taking.
Constitutional Law, Eminent domain, Taking of
property, Trial by jury. Practice, Civil, Eminent
domain proceeding, Jury trial, Judgment
notwithstanding verdict.
Civil action commenced in the Superior Court
Department on November 27, 2012.
A motion to bifurcate the trial was considered by
Cornelius J. Moriarty, II, J.; the case was tried before
him; and a motion for judgment notwithstanding the
verdict was considered by him.
Michelle N. O'Brien (Nicholas P. Brown also
present) for the defendants.
Brian J. Wall for the plaintiff.
Edward J. DeWitt, for Association to Preserve
Cape Cod, Inc., amicus curiae, submitted a brief.
Rebekah Lacey, for Massachusetts Association of
Conservation Commissions, amicus curiae, submitted
a brief.

1 Town

of Falmouth.

Appendix A-2

GREEN, C.J. A land owner brought this action in
the Superior Court, claiming that local land use
regulation effected a taking of her property, requiring
just compensation under the Fifth Amendment to the
United States Constitution and art. 10 of the
Massachusetts Declaration of Rights. This appeal
presents a question of first impression in
Massachusetts: whether the land owner is entitled to
have her regulatory taking claim decided by a jury.
We conclude that the jury right does not attach to such
a claim, and that the judge erred in denying the
defendants' motion to submit only the question of
damages to a jury. We further conclude that the
evidence presented at the trial did not, as matter of
law, support a claim of regulatory taking. We
accordingly reverse the judgment in the plaintiff's
favor and direct that judgment enter for the
defendants.2
Background. We summarize the facts appearing
in the record, which are for the most part undisputed.3
The plaintiff owns an unimproved lot of land at 250
Alder Lane (property) in Falmouth (town). She
inherited the property from her parents, who
purchased it for $49,000 in 1975.4 The property is
2 We acknowledge the amicus briefs submitted by the
Association to Preserve Cape Cod, Inc. and the Massachusetts
Association of Conservation Commissions.
3 Though the evidence presented by the parties conflicts in
certain respects, the divergence is not material to the issues we
address below and does not affect the accuracy of the summary
that follows.
4 The plaintiffs parents also purchased, and the plaintiff
inherited, another nearby (but not contiguous) lot at 269 Alder
Lane in 1972. The record does not disclose the original purchase
price for 269 Alder Lane. The plaintiff sold that unimproved lot

Appendix A-3

located within a residential subdivision known as
"Wild Harbour Estates," which contains
approximately 174 lots.5 Though the plaintiffs
parents purchased the property with the intention of
someday building a residence to occupy in retirement,
they took no steps toward planning or building a home
on it. From 1975 through the end of 2005, the
plaintiffs parents (and later the plaintiff) paid
property taxes and homeowners' association dues on
the property, and certain legal fees incident to
transferring title to the plaintiff, but otherwise
incurred no development or other costs or expenses
associated with their ownership.
In June, 2006, the plaintiff retained a consultant
to perform a soil evaluation test for a proposed septic
system on the property, and her husband (an
architect) prepared two sketches for a potential house
on the property. In late 2007 and early 2008, the
plaintiff engaged various professionals to prepare
formal plans for a house on the property, and to assist
in the preparation of applications for the required
approvals. In 2012, the plaintiff filed a notice of intent
with the defendant town conservation commission
in August, 2006, for $300,000. The defendants press no
contention that the two noncontiguous lots, purchased at
different times, should be considered a single economic unit
comprising the "denominator" for assessing the impact of the
regulations on the plaintiff's investment-backed expectations.
See Giovanella v. Conservation Comm'n of Ashland, 447 Mass.
720, 726-731 (2006).
Under the town zoning bylaw, permitted uses in the zoning
district in which the property is located include, among other
things, one-family detached houses; parks; playgrounds;
beaches; watershed; agriculture and floriculture; and common
piers, floats, and docks.

5

Appendix A-4
(commission), seeking approval, under both the
Wetlands Protection Act, G. L. c. 131, § 40, and the
town wetlands protection bylaw (and related
regulations), of her plans to construct a residence on
the property. As submitted, the plaintiffs plans
required several variances from the wetlands
protection bylaw, as they did not comply with its
requirements covering coastal banks, salt marshes, or
land subject to coastal storm flowage. The commission
denied the plaintiffs variance requests, and the
plaintiff filed the present action. In her amended
complaint, the plaintiff sought relief in the nature of
certiorari, under G. L. c. 249, § 4, and declaratory
relief, in both instances directed to the denial of her
variance requests. Count III of the amended
complaint asserted that the application of the town's
wetlands protection bylaw to the property effected a
regulatory taking, for which she was entitled to
compensation under the Fifth Amendment to the
United States Constitution and art. 10 of the
Massachusetts Declaration of Rights.
A judge of the Superior Court denied the
plaintiffs motion for judgment on the pleadings,
thereby upholding the commission's decision and
disposing of counts I and II of the complaint;
thereafter, a different judge denied the defendants'
motion for summary judgment on the plaintiffs
regulatory taking claim. The defendants then moved
to bifurcate the trial, so that the question whether a
regulatory taking had occurred would be tried without
a jury and only the question of damages (if a taking
had occurred) would be tried before a jury. The judge
denied the defendants' motion, submitting both the
question of liability and of damages to the jury. At
trial, among other evidence, the plaintiff presented

Appendix A-5

the testimony of an appraiser who determined that
the property in 2014 had a value, if buildable, of
$700,000 and, if unbuildable, of $60,000.6 After trial,
a jury found that the wetlands protection bylaw
effected a regulatory taking of the plaintiff's property,
and awarded damages in the amount of $640,000. The
plaintiff filed a motion for costs and for interest on the
damages award pursuant to G. L. c. 79, § 37
(governing eminent domain), or alternatively,
pursuant to G. L. c. 231, § 6H (governing damages
generally). In her subsequent reply to the defendant's
response to her motion, the plaintiff argued that the
interest should be calculated pursuant to G. L. c. 231,
§ 6H, and not G. L. c. 79, G. L. c. 37. The trial judge
awarded costs and directed that interest be calculated
pursuant to G. L. c. 79, § 37, citing Lopes v. Peabody,
430 Mass. 305, 314 (314) (1999). After judgment
entered, the defendants moved unsuccessfully for
judgment notwithstanding the verdict. Both parties
appealed.
Discussion. 1. Jury right. Under Mass. R. Civ. P.
39(a), as amended, 450 Mass. 1403 (2008), it is error
to submit an issue to a jury over objection, unless the
party seeking the jury determination has a right to a
jury trial on the issue.? The right to a jury trial is
established by art. 15 of the Massachusetts
Declaration of Rights, which "has been construed as
preserving the right to trial by jury in actions for
The appraiser also testified that the values of the property in
2012, when the commission denied the plaintiffs application,
would be "very similar" to those determined in his 2014
appraisal.
6

The rule is the same in the Federal courts. See Fed. R. Civ. P.
39(a).

7

Appendix A-6
which a right to trial by jury was recognized at the
time the Constitution of the Commonwealth was
adopted in 1780." New Bedford Hous. Auth. v. Olan,
435 Mass. 364, 370 (2001).8 "If a wholly new cause of
action is created, a jury trial right does not attach to
that claim." Department of Revenue v. Jarvenpaa, 404
Mass. 177, 188 (1989). A new cause of action
nonetheless may fall within the jury trial right if it is
analogous to a common-law claim entitled to trial by
jury in 1780. See Stonehill College v. Massachusetts
Comm'n Against Discrimination, 441 Mass. 549, 561
n.16 (2004).
The parties in the present case agree that a claim
based on an alleged regulatory taking or, as such a
claim is sometimes described, inverse condemnation,
did not exist when the Massachusetts Constitution
was adopted, or for a considerable time thereafter; it
came into existence only when the Supreme Court of
the United States issued its decision in Pennsylvania
Coal Co. v. Mahon, 260 U.S. 393, 415-416 (1922). The
question whether the plaintiff is entitled to a jury trial
on her claim of regulatory taking accordingly depends
on whether it is analogous to a common-law claim
entitled to trial by jury in 1780, or whether it is a
wholly new cause of action.
We are not persuaded that an ordinary claim of a
regulatory taking sufficiently resembles an action in
tort to warrant a conclusion that the claim is
analogous to such a claim for purposes of recognizing

Essentially the same analysis is used to determine whether the
jury right attaches under the Seventh Amendment to the United
States Constitution. See Dalis v. Buyer Advertising, Inc., 418
Mass. 220, 224 n.5 (1994).
8

Appendix A-7

the right to a jury trial. Among other differences, a
claim of regulatory taking — at least of the type
framed by the plaintiff's amended complaint — is
markedly different from an action for trespass, in that
the plaintiff raises no claim of physical invasion of her
property. Compare, e.g., Nollan v. California Coastal
Comm'n, 483 U.S. 825 (1987), in which a requirement
that the property owners maintain a pathway for
public access on their property effected a regulatory
taking requiring just compensation; Loretto v.
Teleprompter Manhattan CATV Corp., 458 U.S. 419,
426 (1982), in which a physical invasion of private
property authorized by the government for
installation of cable lines and related equipment
constituted a compensable taking, without regard to
the public purposes it may serve.
The comparison of a claim of regulatory taking to
common law tort fails from another perspective. As
Justice Souter observed in his dissenting opinion in
Monterey v. Del Monte Dunes at Monterey, Ltd., 526
U.S. 687, 747 (1999) (Del Monte Dunes), unlike the
question of liability in a common law tort claim, the
question of liability in a claim of regulatory taking
does not concern whether a wrongful act occurred;
indeed, the "very assumption that liability flows from
wrongful or unauthorized conduct is at odds with the
modern view of acts effecting inverse condemnation as
being entirely lawful. . . . Unlike damages to redress a
wrong as understood in Gardner [v. Newburgh, 2
Johns. Ch. 162 (N.Y. 1816) (Kent, Ch.)] or Bradshaw
[v. Rodgers, 20 Johns. 103 (N.Y. 1822)] (or even in a
modern tort action), a damages award in an inverse
condemnation action orders payment of the 'just
compensation' required by the Constitution for
payment of an obligation lawfully incurred."

Appendix A-8
The essence of the plaintiffs claim of regulatory
taking is that enforcement of the regulatory scheme
has unfairly burdened her ability to use the property,
in comparison to her distinct investment-backed
expectations. Claims of regulatory taking in
circumstances such as those of the present case, where
the regulation at issue effects neither a permanent
physical invasion of property nor a complete
deprivation of all economically beneficial use, require
a highly nuanced balancing of multiple factors. Under
Penn Cent. Transp. Co. v. New York City, 438 U.S.
104, 124 (1978) (Penn Central), the factors that have
"particular significance" include "[t]he economic
impact of the regulation" on the plaintiff; "the extent
to which the regulation has interfered with [the
property owner's] distinct investment-backed
expectations"; and "the character of the governmental
action." See Gove v. Zoning Bd. of Appeals of
Chatham, 444 Mass. 754, 764 (2005). The claim itself,
and the balancing test employed to evaluate it, find no
apt comparison in actions recognized at common law
in 1780; it is instead a "wholly new" cause of action.9

In our view, the application of the multifactored Penn Central
test to the effect of a particular regulatory scheme on a particular
parcel of land is perhaps most similar to the question whether
acts are "unfair or deceptive" within the meaning of G. L. c. 93A.
In that context, the Supreme Judicial Court noted that a "flexible
set of guidelines" is used to determine what is lawful or unlawful,
and that, though "certain consumer violations are perhaps rooted
in common law claims," the terms "unfair and deceptive" are
"sufficiently open-ended to embrace causes of action for which
there are no common law analogues." Nei v. Burley, 388 Mass.
307, 313 (1983). Though the ultimate remedy — just
compensation in the form of money damages — is legal rather
than equitable in nature, "[amn award of monetary relief does not
9

Appendix A-9

For their part, the defendants suggest that a
claim of regulatory taking most closely resembles a
direct eminent domain proceeding. We disagree.
While both claims rest on the same constitutional
guarantee against governmental taking of property
without just compensation, and both ultimately result
in the same remedy — just compensation — a claim of
regulatory taking involves a preliminary (albeit
significant and complex) question whether a taking
has occurred at all. It is that determination of liability,
based on the multifactored Penn Central test we have
discussed, that is entirely different in kind from any
question undertaken in a traditional direct
condemnation action. See, e.g., Del Monte Dunes, 526
U.S. at 712-713.10
Finally, we reject the plaintiff's contention that
Del Monte Dunes itself established a right to a jury
trial for a claim of regulatory taking. Del Monte Dunes
was brought under 42 U.S.C. § 1983, because "the
State of California did not provide a compensatory
remedy for temporary regulatory takings." 526 U.S. at
710. Though the Court found a jury right for the
property owner in that case, it expressly observed that

always implicate, a fortiori, an art. 15 right to a jury trial."
Stonehill College, 441 Mass. at 568.
Though both parties appear to assume in their respective
arguments that treating a claim of regulatory taking as
analogous to a direct condemnation action would result in a
conclusion that no jury right attaches: that conclusion is not at
all clear. Province Law 1756-1757, c. 18, enacted in 1756 and still
in effect when the Massachusetts Constitution was adopted in
1780, provided for the layout of highways and the assessment of
related damages and that landowners could appeal to a jury "if
the person complaining desires the same.

10

Appendix A-10

its decision did "not address the jury's role in an
ordinary inverse condemnation suit." Id. at 721.11
We conclude that the question whether a
particular regulatory scheme has effected a regulatory
taking, as distinct from the question of what
constitutes just compensation for the taking — or, in
other words, the question of liability in a regulatory
taking claim — is a "wholly new" cause of action, to
which the right to a jury trial does not attach. See
Jarvenpaa, 401 Mass. at 188.12

Pluralities in Del Monte Dunes adopted contrasting views of
the nature of an inverse condemnation claim and the extent to
which it might be analogized to a claim in tort or a direct
condemnation claim. Justice Kennedy, writing for himself, Chief
Justice Rehnquist, and Justices Stevens and Thomas, concluded
that the claim is sufficiently analogous to a common law tort
claim to warrant submission of the question of liability to a jury,
see 526 U.S. at 715, while Justice Souter, writing in dissent for
himself and Justices O'Connor, Ginsburg, and Breyer, concluded
that the claim is not analogous to a claim in tort but instead is
more appropriately analogized to a classic eminent domain
action, to which no jury right applies. See supra at 536-537
(Souter, J., dissenting). There is no majority holding in Del
Monte Dunes for the proposition that an ordinary regulatory
taking claim, outside the context of a claim under 42 U.S.C.
§ 1983 occasioned by the absence under the relevant State law of
a postdeprivation remedy, is analogous to a common law tort
claim.

11

12 Our conclusion that no jury trial right attaches to the question
of liability in a regulatory taking claim is in accord with the vast
majority of other States that have considered the question. See,
e.g., Marshall v. Department of Water & Power, 219 Cal. App. 3d
1124, 1141 (1990); Scott v. County of Custer, 178 P.3d 1240, 1243
(Colo. App. 2007); Cumberland Farms, Inc. v. Groton, 262 Conn.
45, 70 (2002); Department of Agric. & Consumer Servs. v.
Bonanno, 568 So. 2d 24, 28 (Fla. 1990); Covington v. Jefferson
County, 137 Idaho 777, 780 (2002); Hampton v. Metropolitan

Appendix A-11

2. Regulatory taking. Our analysis does not end
with our conclusion that it was error to submit the
question of liability to the jury over the defendants'
objection. The question remains whether to remand
the case for a new trial without a jury or whether, as
the defendants contended in their motion for
judgment notwithstanding the verdict, the question of
liability can be determined as matter of law on the
basis of the trial record. To that end, we consider
whether the evidence at trial, viewed in the light most
favorable to the plaintiff, supports a claim of
regulatory taking. See Boothby v. Texon, Inc., 414
Mass. 469, 470 (1993).13

Water Reclamation Dist., 2016 IL 119861, ¶ 23; Zimmerman v.
County Comm'rs of Wabaunsee County, 293 Kan. 332, 344
(2011); Alevizos v. Metropolitan Airports Comm'n of Minneapolis
& St. Paul, 298 Minn. 471, 484 (1974); 6224 Fontenelle Blvd.,
L.L.C. v. Metropolitan Utils. Dist., 22 Neb. App. 872, 879 (2015);
McCarran Int'l Airport v. Sisolak, 122 Nev. 645, 661 (2006);
Wilkinson v. Board of Univ. & Sch. Lands, 2017 N.D. 231, ¶ 22;
Harris v. Lincoln, 668 A.2d 321, 327 (R.I. 1995); WRB Ltd.
Partnership v. County of Lexington, 369 S.C. 30, 32 (2006);
Hallco Tex., Inc. v. McMullen County, 221 S.W.3d 50, 56 (Tex.
2006); E-L Enters., Inc. v. Milwaukee Metro. Sewerage Dist.,
2010 WI 58, ¶ 29 n.20. Contrast Leone v. County of Maui, 141
Haw. 68, 85 (2017); Iowa Dev. Co. v. Iowa State Highway
Comm'n, 255 Iowa 292, 297 (1963); Carter v. Oklahoma City, 862
P.2d 77, 81 (Okla. 1993).
The defendants first raise their contention that no regulatory
taking occurred by claiming error in the denial of their motion
for summary judgment. However, the denial of a motion for
summary judgment is not reviewable on appeal after a trial on
the merits. Deerskin Trading Post, Inc. v. Spencer Press, Inc.,
398 Mass. 118, 126 (1986). We instead consider the question
through the lens of the defendants' posttrial motion for judgment
notwithstanding the verdict.

13

Appendix A-12
As we have discussed above, the question whether
a regulatory scheme effects a taking calls for
application of a balancing test, in which the "relevant
`guideposts' include: the actual 'economic impact of the
regulation' on the plaintiff; the extent to which the
regulation 'has interfered with' a landowner's 'distinct
investment-backed expectations'; and the 'character of
the governmental action"' (citation omitted). Gove,
444 Mass. at 764. Against that background, we
consider the evidence elicited at tria1.14
a. Economic impact. Evaluation of the economic
impact of a regulation on the plaintiff begins with a
comparison of the value of the property with and
without the regulation. See Giovanella v.
Conservation Comm'n of Ashland, 447 Mass. 720, 734
(2006). However, even quite significant reductions in
value do not necessarily constitute a regulatory
taking. See, e.g., Appolo Fuels, Inc. v. United States,
381 F.3d 1338, 1348 (Fed. Cir. 2004), cert. denied, 543
U.S. 1188 (2005) (finding no taking after decreases in
value of seventy-eight per cent and ninety-two per
cent on two combined lots). Based on the valuation
determined by the plaintiffs appraiser, the regulation
reduced the value of the property from $700,000 (if
buildable) to $60,000 (if unbuildable). While
significant, we observe that even as unbuildable the
property's value is still greater than the amount
($49,000) the plaintiffs parents paid for the property
when they purchased it.15
Though the parties sharply dispute whether a regulatory
taking occurred, our review of the record reveals that the facts
bearing on that question are largely not in dispute.

14

The plaintiff presented no evidence at trial of the present
value of the price her parents paid for the property in 1975. While

15

Appendix A-13

As for other uses to which the property might be
put, the zoning bylaw allows it to be used, among
other things, as a park or a playground, and the
plaintiff's appraiser testified at trial that it would be
attractive to abutting owners on either side either for
privacy or for expansion of their respective properties.
See FIC Homes of Blackstone v. Conservation
Comm'n of Blackstone, 41 Mass. App. Ct. 681, 694
(1996).
b. Investment-backed expectations. The fact
that a property owner acquired property by means of
inheritance rather than purchase does not by itself
defeat a claim of interference with investment-backed
expectations. See Gove, 444 Mass. at 766. However,
the record shows a distinct lack of any financial
investment toward development of the property,
whether by the plaintiff or her parents, at any time
over more than thirty years, including a substantial
period within which it could have been built upon. The
plaintiff (and her parents before her) paid property
taxes on the property, assessed in its undeveloped
state, and the plaintiff spent $600 on a percolation
test in 2006 as she began to explore development
possibilities.16 In such circumstances, and considering

we recognize the likelihood that the present value of the original
purchase price may exceed the current value of the lot in its
unbuildable condition, as we have observed, even a substantial
reduction of the value of property can occur without effecting a
regulatory taking. See Giovanella, 447 Mass. at 734-735, and
cases cited.
As the plaintiff developed and prosecuted her variance
applications in the proceedings that led to the present action, she
spent approximately $70,000 for professional services. We note,
however, that by definition those fees were spent at a time when

16

Appendix A-14

that (as we have observed) the property even as
unbuildable is worth more now than its purchase
price, "it seems clear that any compensation would
constitute a 'windfall' for [the plaintiff]." Gove, supra.
c. Character of the governmental action. In
evaluating the character of the governmental action,
"[t]he most straightforward analysis . . . is whether
the character of the governmental action is like a
physical invasion." Giovanella, 447 Mass. at 735. "The
Supreme Court also has considered whether a
regulation unfairly singles out the owner. Other
courts have looked at whether the government
regulation is limited to mitigating harms or
nuisances. Such regulations typically do not require
compensation" (citation omitted). Id.
Here, the government's action was clearly not like
a physical invasion, and the plaintiff admits as much.
The regulations at issue are of general applicability to
all property in the town that has wetland resources
and, by their terms, are designed to protect coastal
and wetland resources generally. "Reasonable
government action mitigating such harm, at the very
least when it does not involve a 'total' regulatory
taking or a physical invasion, typically does not
require compensation." Gove, 444 Mass. at 767.
Conclusion. In sum, based on the undisputed facts
in the record, viewed in the light most favorable to the
plaintiff, we conclude that the regulations at issue in
the present case did not effect a regulatory taking of

she knew her property could not be developed under applicable
regulations, but only with the relief of several variances.

Appendix A-15

the property.17 The order denying the defendants'
motion for judgment notwithstanding the verdict is
reversed. The judgment is reversed, and a new
judgment shall enter for the defendants.
So ordered.

17 Our conclusion renders moot the plaintiff's cross appeal,
challenging the trial judge's conclusion that interest on the
damage award should accrue at the statutory rate applicable to
eminent domain awards, under G. L. c. 79, § 37, rather than to
damage awards more generally, under G. L. c. 231, § 6H. We note
that, though the plaintiff dismisses the discussion of the topic in
Lopes, 430 Mass. at 314, as dictum, it is clear from its opinion
that the court intended to provide conclusive guidance on the
subject for application to future cases.

Appendix B-1
Filed April 4, 2016
COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COURT
CIVIL ACTION
NO. 2012-00687

BARNSTABLE, ss.

JANICE SMYTH
vs.
CONSERVATION COMMISSION OF
FALMOUTH & another'
MEMORANDUM OF DECISION
AND ORDER ON DEFENDANT'S
MOTION FOR SUMMARY JUDGMENT
Janice Smyth, the plaintiff, brought this action
claiming a regulatory taking of an undeveloped
residential lot at 250 Alder Lane, North Falmouth,
resulting from the Conservation Commission of
Falmouth's application of the Falmouth Wetlands
Protection Bylaw and Wetlands Regulations to the
property. The Commission now moves for judgment as
a matter of law that the plaintiff cannot establish a
regulatory taking where she had no reasonable
investment-backed expectation of developing the
property, the economic impact of the wetlands
regulations is not sufficiently severe, and the
character of the governmental action is not a physical
invasion of the land or unfair singling out of the
plaintiff. For the reasons set forth below, the

1 Town

of Falmouth

Appendix B-2
defendant's Motion for Summary Judgment is
DENIED.
BACKGROUND
The plaintiff owns an undeveloped lot located at
250 Alder Lane in North Falmouth, in a development
known as Wild Harbor Estates. The property is
approximately 16,477 square feet and abuts a salt
marsh and coastal bank. The plaintiffs parents
purchased the lot in 1975 for $49,000, intending to
build a home. The plaintiff acquired a one-half
interest in the lot in 2001, and became sole owner in
2005. In June 2006, the plaintiff hired a consultant to
perform soil evaluation and percolation testing of the
lot in preparation for a proposed septic system. The
plaintiff also consulted her husband, an architect, for
some rough sketches of a design for a home and septic
system. In 2008, the plaintiff obtained formal plans
for the construction of a three bedroom single-family
dwelling with a de-nitrifying septic system, driveway
and native plantings, and in 2012, she filed a Notice
of Intent with the Commission to develop the lot. The
Commission denied the NOI under both the state
Wetlands Protection Act and the local Falmouth
Wetlands Regulations. The plaintiff obtained a
superseding order of conditions from the Department
of Environmental Protection approving the project
under the WPA.
Plaintiff filed the present action November 27,
2012. Her Amended Complaint sets forth three
counts, the first and second counts sought to overturn
the Commission's decision under the local by law
while the third count alleges a regulatory taking. The
Commission's by law based decision was effectively
affirmed by the Court's earlier denial of plaintiffs

Appendix B-3

motion for judgment on the pleadings (Muse, J.
pleading no. 13). Plaintiff continues to press her claim
of regulatory taking.
There are two versions of the Falmouth Wetlands
Regulations that were in place in the years since the
plaintiff acquired an interest in the undeveloped lot.
The regulations in place at the time of the plaintiffs
2012 permit application bar development of the lot
with a residence, unless a variance is granted. (Joint
Appendix Ex. 3, 4). In particular, the western portion
of the lot lies within a 100 foot no-disturbance zone
extending from the edge of the salt marsh (FWR
10.18(8)(a)(1)), while nearly all of the eastern portion
of the lot lies within a 50 foot no disturbance zone
extending from the non-eroding coastal bank located
in the center of the lot. (FWR 10.18(5)(a)(3)). Only a
small, 115 square foot wedge of land at the extreme
northeastern corner of the lot falls outside these nodisturbance zones. Additionally, due to a 25 foot frontyard setback required by both local zoning regulations
and a restrictive covenant particular to this lot, a
portion of the proposed residence would have to be
located in the area of a coastal bank within the
velocity zone (FWR 10.30(7)(b)), and in the area of a
coastal bank within 100 feet of a salt marsh (FWR
10.30(7)(d)(1)(b)).
The regulations in effect in 2001, when the
plaintiff first acquired an interest in the lot, were the
1998 amended version. The 1998 regulations contain
many of the same provisions as those in place in 2012,
including a prohibition against construction "on" a
coastal bank in a v-zone or within 100 feet of a salt
marsh, as well as within a further 100 feet landward
of such coastal banks, as such banks were presumed

Appendix B-4
significant to resource area protection. (Joint
Appendix Ex. 5, FWR 10.30(7)(b), 10.30(7)(d)(1)(b)).
Similarly, the 1998 regulations contained a 100 foot
buffer zone applied to salt marsh, with the
presumption that the buffer is significant to the
resource areas where the project proposes "building
upon . . . or otherwise altering" the buffer. (Joint
Appendix Ex. 5, FWR 10.18(3), 10.18(8)).
However, the 1998 regulations differed in two
significant ways from those in place in 2012. First, the
portion of the buffer zone provisions contained within
FWR 10.18(8) only applied to an "eroding coastal
bank", not just any coastal bank, like in those
separately set out in FWR 10.30(7). (Joint Appendix
Ex. 5, FWR 10.18(8)(a)(4), 10.18(8)(b)(4)). Second, the
1998 FWR 10.18 buffer requirements contained a
`flexibility' provision, FWR 10.18(7), that was later
eliminated by amendments in 2008. FWR 10.18(7)
stated that the Commission "may issue a permit for
activity on a parcel that existed as of August 15, 1998,
where no practicable alternative exists on the parcel
that would allow a resource area buffer the width
required in FWR 10.18(8)(a) and (b) for new
construction due to site constraints provided a
resource area buffer is maintained as close as
practicable to those required for new activity in FWR
10.18(8)(a) and (b) and in no case less than twenty-five
(25) feet." Thus, the Commission might have reduced
the 100 foot salt marsh buffer required by FWR
10.18(8)(a)(7) to a minimum of a 25 foot buffer under
this 1998 regulation if it found there to be no
practicable alternative.

Appendix B-5

DISCUSSION
A grant of summary judgment is appropriate
where there are no genuine issues of material fact and
the summary judgment record entitles the moving
party to judgment as a matter of law. Mass. R. Civ. P.
56(c); Cassesso v. Comm'r of Corr., 390 Mass. 419, 422
(1983); Cmty. Nat'l Bank v. Dawes, 369 Mass. 550, 553
(1976). The moving party bears the burden of
affirmatively demonstrating that there is no genuine
issue of material fact on every relevant issue.
Pederson v. Time Inc., 404 Mass. 14, 17 (1989). A party
moving for summary judgment who does not bear the
burden of proof at trial may demonstrate the absence
of a genuine dispute of material fact for trial either by
submitting affirmative evidence negating an essential
element of the non-moving party's case, or by showing
that the non-moving- party has no reasonable
expectation of proving an essential element of its case
at trial. Flesner v. Technical Communications Corp.,
410 Mass. 805, 809 (1991); Kourouvacilis v. General
Motors Corp., 410 Mass. 706, 716 (1991). It is
necessary, however, for the summary judgment
movant "to show by credible evidence from . . .
affidavits and other supporting materials that there is
no genuine issue of material fact and that [the party
is] entitled, as matter of law, to a judgment." Smith v.
Massimiano, 414 Mass. 81, 85 (1993) (citations
omitted).
Where, as here, a plaintiff does not allege a
permanent physical intrusion onto the land by the
government, nor that a regulation has deprived her of
all economically beneficial use of the land, the court
applies the three-part framework set out in Penn.
Central Transportation Co. v. New York City, 438 U.S.

Appendix B-6
104, 124 (1978). See Gove v. Zoning Bd. of Appeals of
Chatham, 444 Mass. 754, 764-767 (2005). The court
must consider: (1) the economic impact of the
regulation on the plaintiff; (2) the extent to which the
regulation has interfered with the plaintiffs distinct
investment-backed expectations; and (3) the character
of the governmental action. Id. Importantly, "[a]
property owner's investment-backed expectations
must be reasonable and predicated on existing
conditions." Leonard v. Town of Brimfield, 423 Mass.
152, 155 (1996). "[T]he regulatory regime in place at
the time the claimant acquires the property at issue
helps to shape the reasonableness of those
[investment-backed] expectations." Palazzolo v.
Rhode Island, 533 U.S. 606, 633 (2001) (O'Connor, J.,
concurring).
The Commission moves for summary judgment on
the grounds that the undisputed facts show that the
plaintiff had no reasonable investment-backed
expectation of development under the 1998
regulations in place at the time she first acquired an
interest in the lot. Further, the Commission argues
that the 91% decrease in value of the unbuildable lot
is not sufficiently severe to constitute a taking, and
that the character of the governmental action is not a
physical invasion of the land or unfair singling out of
the plaintiff. Thus, the Commission concludes, the
plaintiff cannot establish a takings claim as a matter
of law.
The plaintiff opposes, relying upon the affidavit of
engineer Michael J. Borselli, which asserts that the
lot would have been buildable under the 1998
regulations, which were in place until after the
plaintiff started preparations in 2006 to construct a

Appendix B-7
residence. (Joint Appendix Ex. 18). Borselli opines
that the plaintiff could have rebutted FWR 10.30's
presumption, that the coastal bank and/or the impact
of the proposed project thereupon was significant, by
showing that the bank was heavily vegetated and
gently sloping. Such a finding would have rendered
the 100 foot no-disturb zone in FWR 10.30
inapplicable to the project. (Joint Appendix Ex. 18).
Further, Borselli opines that constructing the
residence on elevated piles or in a cantilevered fashion
would remove it from the restrictions of FWR 10.30
because it wouldn't be "on" the coastal bank, and that,
in his experience, the Commission accepted such an
interpretation at the time the plaintiff acquired an
interest in the property. (Joint Appendix Ex. 18).
Lastly, Borselli argues that the salt marsh buffer zone
restriction in FWR 10.18(8) could have been avoided
under FWR 10.18(7), which allowed the Commission
to reduce that zone to a minimum of 25 feet because
there was no practicable alternative. (Joint Appendix
Ex. 18). Borselli attests that, in his experience, the
Commission interpreted FWR 10.18(7) as "trumping
other setbacks in the Regulations", such as FWR
10.30(7). (Ex. A to Paper 26, Affidavit of Michael J.
Borselli, P.E. dated December 31, 2015). Based on
these conclusions, Borselli opines that the proposed
project would have been eligible for a permit under the
1998 version of the local wetlands regulations.
The Commission submits a dueling affidavit, from
Conservation Administrator Jennifer L. McKay.
(Joint Appendix Ex. 1). McKay opines that the
plaintiff's project would have been subject, among
other provisions, to the 1998 version of FWR
10.38(4)(d), which prohibited alterations in a velocity
zone to vegetative cover for the construction of a new

Appendix B-8

building or foundation other than open pilings or
columns. McKay further attests that, in her
experience, the Commission has never determined
that a structure elevated on pilings is exempt from the
FWR 10.38(4)(d) prohibition, and therefore a variance
was required to obtain a permit at the time the
plaintiff acquired an interest in the property. (Joint
Appendix Ex. 1).
Thus, there is a significant dispute of material
fact regarding whether the plaintiff had a reasonable
expectation of development of a residence under the
1998 wetlands regulations in place at the time she
acquired an interest in the lot. If it was reasonable to
expect a permit under the 1998 regulations, the 2006
soil samples and sketches by the plaintiff's husband
could constitute "substantial personal financial
investment" in the lot above and beyond the payment
of taxes and association dues, thus supporting a
finding of reasonable investment-backed expectations
before the 2008 regulatory amendments removed
FWR 10.18(7). See Giovanella v. Conservation
Comm'n of Ashland, 447 Mass. 720, 734 (2006)
(failure to show "any substantial personal financial
investment in the development of [the] lot" undercuts
argument that party had reasonable expectation of
building a house on the lot).
Further, the reasonableness of expecting a permit
under the various versions of the local wetlands
regulations is also pertinent to the determination of
the magnitude of the regulations' economic effect on
the plaintiff. See Penn. Central Transportation Co.,
438 U.S. at 124. The Commission relies upon an
appraisal reporting the reduction in value of the lot if
unbuildable as of 1998, when it argues that the

Appendix B-9
plaintiffs parents ceased to have a reasonable
expectation of obtaining a permit. This report sets the
reduction from $250,000 to $25,000. In contrast, the
plaintiff relies on an appraisal of the property's value
as of 2014, which finds that the value of the lot, if
unbuildable, as been diminished from $700,000 to
$60,000.
Thus, the parties' dueling affidavits create
material issues of fact with respect to two of three
"guideposts" under the Penn. Central framework,
economic impact and investment-backed
expectations, which must be resolved by the finder of
fact. As the Commission has not affirmatively
demonstrated that there is no genuine issue of
material fact on every issue relevant to the takings
claim, the Motion for Summary Judgment must be
DENIED. See Pederson, 404 Mass. at 17.
ORDER
For the reasons stated herein, it is ORDERED
that the defendant's Motion for Summary Judgment
be DENIED.
s/ Gary A. Nickerson
Gary A. Nickerson
Justice of the Superior Court
April 4, 2016
A true copy, Attest: s/ Scott W. Bickerson
Clerk

Appendix

q-i

Supreme Judicial Court for the
Commonwealth of Massachusetts
John Adams Courthouse
One Pemberton Square, Suite 1400,
Boston, Massachusetts 02108-1724
Telephone 617-557-1020, Fax 617-557-1145
Jan David Breemer, Esquire
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
RE:

Docket No. FAR-26693

JANICE SMYTH
vs.
FALMOUTH CONSERVATION COMMISSION &
another
Barnstable Superior Court No. 1272CV00687
A.C. No. 2017-P-1189
NOTICE OF DENIAL OF APPLICATION
FOR FUTHER APPELLATE REVIEW
Please take note that on May 9, 2019, the
application for further appellate review was denied.
Francis V. Kenneally, Clerk
Dated: May 9, 2019
To: Seth G. Roman, Esquire
Brian J. Wall, Esquire
Jan David Breemer, Esquire

Appendix C-2
Michelle N. O'Brien, Esquire
Patricia A. Harris, Esquire
Nicholas P. Brown, Esquire
Edward J. DeWitt, Esquire
Rebekah Lacey, Esquire

